OIG Investigative Reports, Cory Alan Bailey, Cedar Rapids Man Sentenced To Prison for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
Northern District of Iowa
FOR IMMEDIATE RELEASE:
January 3, 2011
www.justice.gov/usao/ian
Contact: Bob Teig
Hach Building,
Suite 400,
401 1st Street, S.E.
Cedar Rapids, Iowa 52401-1825
Phone: (319) 363-0091
Fax:  (319) 363-1990
Cory Alan Bailey, Cedar Rapids Man Sentenced To Prison for Student Loan Fraud
A man who participated with others in a scheme to fraudulently obtain federal student loans was sentenced today to three years in federal prison.
Cory Alan Bailey, age 22, from Cedar Rapids received the prison term after a June 10, 2010, guilty plea to one count of mail fraud.
In a plea agreement, Bailey admitted participating in a scheme with others to fraudulently obtain federal student loan proceeds. Bailey recruited others to sign up for classes at Kirkwood Community College in Cedar Rapids. Bailey then created e-mail accounts for those he recruited. Bailey and his co-schemers used the e-mail accounts to apply for federal financial aid for the others, enroll them in classes, and arrange for their federal loan proceeds checks to be directed to post office boxes under the control of his co-schemers. Those recruited were not really students attending classes.
Bailey was sentenced in Cedar Rapids by United States District Court Chief Judge Linda R. Reade. Bailey was sentenced to 36 months’ imprisonment. A special assessment of $100 was imposed, and he was ordered to make $5,854 in restitution to Kirkwood Community College, and $133,066 in restitution to the United States Department of Education, for a total of $138,920 in restitution. He must also serve a 3-year term of supervised release after the prison term. There is no parole in the federal system.
Bailey was released on the bond previously set and is to surrender to the Bureau of Prisons on a date yet to be set.
The case was prosecuted by Assistant United States Attorney Peter E. Deegan, Jr. and was investigated by the United States Department of Education and the United States Postal Inspection Service.
Printable view
Last Modified: 01/27/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov